            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



     SUMMARY OF SINGLE AUDIT
       OVERSIGHT ACTIVITIES
    MAY 2003 THROUGH APRIL 2004


       September 2004   A-07-04-14063




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   September 3, 2004                                                                    Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Summary of Single Audit Oversight Activities May 2003 through April 2004
        (A-07-04-14063)


        OBJECTIVE

        Our objective was to summarize categories of internal control weaknesses at Disability
        Determination Services (DDS) reported in single audits and identified during our single
        audit oversight activities. To accomplish our objective, we reviewed 54 single audits
        covering 51 DDSs and categorized findings that were identified as directly affecting
        DDS operations and crosscutting findings that potentially affect DDS operations. Of the
        54 single audits, 12 reported direct findings and 46 reported crosscutting findings. 1

                                              Findings




                                                              None
                                                              None                    (10)
                                                              Crosscutting            (31)
                                                              Crosscutting
                                                              Direct and Crosscutting (10)
                                                              Direct and Crosscutting
        Appendix C lists the 54 single audits included in our review and identifies those with
        direct and/or crosscutting findings.

        1
          The number of single audit reports with direct findings is low because the Social Security
        Administration’s disability programs only received audit coverage in 22 of the 54 single audit reports
        included in our review. Although the lack of audit coverage does not preclude direct findings from being
        identified for SSA’s programs, it makes it highly unlikely.
Page 2 – The Commissioner

BACKGROUND
The DDS in each State or other responsible jurisdiction generally perform disability
determinations under the Disability Insurance and Supplemental Security Income (SSI)
programs. Such determinations are required to be performed in accordance with
Federal law and underlying regulations.2 In carrying out this function, the DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence
is available to support its determinations.3 The Social Security Administration (SSA)
authorizes an annual budget to reimburse the DDS for 100 percent of allowable
expenditures. There are 52 DDSs located in the 50 States, the District of Columbia,
and Puerto Rico.4 All DDSs are subject to audit under the Single Audit Act
Amendments of 1996.5 Detailed information on the background, scope, and
methodology of our review is included in Appendix B.

RESULTS OF REVIEW

Our analysis of the findings reported in 54 single audits disclosed direct and
crosscutting findings in the categories of cash management, reporting, and unallowable
costs. The findings relate to DDS’ noncompliance with Federal requirements because
of a lack of adequate internal controls. This report includes a detailed discussion on the
cash management findings. The findings in the other two categories are not discussed
in detail, since they were minimal and not significant to the DDS’ internal control
structures. Appendix D summarizes the 12 single audits with direct findings by DDS.
Appendix E summarizes the 46 single audits with crosscutting findings by DDS.

A comparison of the Office of the Inspector General’s (OIG) administrative cost audit
results to the results of the single audits of California, Colorado, Hawaii, Illinois, Kansas,
Kentucky, New Mexico, Texas, and West Virginia6 disclosed a number of differences.
OIG’s administrative costs audits reported findings in the cash management, allowable
costs, reporting, and equipment and real property categories (see Appendix F). The
single audits, however, did not report all of these findings. We present this comparison
for informational purposes only. We will report our comparison to the cognizant Federal
agency, the Department of Health and Human Services, in a separate management
letter for any action it deems appropriate.

2
    20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et seq. and 416.1001 et seq.
3
    20 C.F.R. §§ 404.1614 and 416.1014.
4
 During the time period covered by our review, the Guam DDS was administered by the government of
Guam and was required to have a single audit. However, effective in State Fiscal Year 2003, the Guam
DDS became Federally administered and is no longer subject to audit under the Single Audit Act
Amendments of 1996.
5
    Pub. L. No. 104-156.
6
    The OIG audit of West Virginia was limited to indirect costs only.
Page 3 – The Commissioner

CASH MANAGEMENT

Congress enacted the Cash Management Improvement Act of 19907 (CMIA) to ensure
efficiency, effectiveness, and equity in transferring funds between the States and the
Federal Government. The CMIA requires the Government to enter into an agreement
with States covering applicable Federal programs and to establish procedures and
requirements for transferring Federal funds.8

The CMIA requires the States to minimize the time between the receipt and
disbursement of Federal funds.9 For those programs covered by the Treasury-State
Agreement, the CMIA generally allows the Federal Government to charge interest when
a State receives Federal funds in advance of disbursements10 and also generally allows
the States to charge interest when State funds are paid out for Federal programs before
funds are made available.11,12 The interest is charged or credited to the trust fund for
which the program expenditures are paid from.13 The States are supposed to calculate
Federal and State interest liabilities for each applicable program14 and report liabilities
on the Annual Report to the United States Department of the Treasury (Treasury).15

Office of Management and Budget Circular A-123, Management Accountability and
Control, states the proper stewardship of Federal resources is a fundamental
responsibility of agency managers and staff.16 Agency employees must ensure that
Government resources are used efficiently and effectively to achieve intended program
results.17 Resources must be used consistent with the agency’s mission, in compliance
with laws and regulations, and with minimal potential for waste, fraud, and


7
    Pub. L. No. 101-453.
8
    31 C.F.R. § 205.9.
9
    31 C.F.R. § 205.11(a).
10
     31 C.F.R. § 205.15.
11
     31 C.F.R. § 205.14.
12
  For those programs not included in the Treasury-State Agreement, 31 C.F.R. § 205.33 requires the
States to minimize the time between the receipt and disbursement of Federal funds; however; the States
cannot charge or receive interest on untimely transfers.
13
     31 U.S.C. §§ 6503(c)(3)(A) and 6503(d)(2).
14
     31 C.F.R. § 205.19.
15
     31 C.F.R. § 205.26.
16
     OMB Circular A-123, Attachment I.
17
     Id.
Page 4 – The Commissioner

mismanagement.18 In addition, the Government Accountability Office (GAO) Standards
for Internal Controls in the Federal Government provide Federal agencies with the
framework for establishing and maintaining internal control and for identifying and
addressing major performance and management challenges and areas at greatest risk
of fraud, waste, abuse, and mismanagement.19 Treasury negotiates the Treasury-State
Agreement and collects and pays interest.20 Treasury does not ensure that States have
cash management controls.

Without cash management controls that ensure adherence to the terms of the CMIA
required agreement, States may not properly identify and assess allowable cash needs.
Accordingly, cash drawn for the DDS could exceed allowable expenditures.
Furthermore, failure to follow the CMIA agreement can result in interest liabilities being
charged to SSA’s trust fund.

Nine of the 12 single audits with direct findings reported States’ noncompliance with the
CMIA.

•      The California Department of Social Services provided its Finance Department
       incorrect information on the California DDS cash draws, which could have resulted in
       an inaccurate calculation of the State’s interest liability to the Federal government.

•      The Colorado Department of Human Services (DHS) did not draw funds in
       accordance with the requirements established in the CMIA agreement. Therefore,
       the State could have been required to pay interest to the Federal government for
       some transactions, and lost interest on State funds used to pay for Federal
       expenditures on other transactions.

•      The Georgia Department of Labor (DoL) drew funds in excess of allowable
       expenditures.

•      The Illinois DHS did not review or recertify the accuracy of clearance patterns
       identified in the CMIA agreement for SSA’s disability programs. Failure to evaluate
       and recertify the clearance pattern could result in the inaccurate calculation of DHS's
       interest obligation to the Treasury or the Federal interest liability to the State.

•      The Maine DHS drew funds after checks were issued, resulting in a negative
       average daily cash balance. Since interest liabilities are calculated based on the
       daily cash balance, this may have resulted in a Federal interest liability to the State.




18
     Id.
19
     GAO/AIMD-00-21.3.1, page 1.
20
     31 C.F.R. 205.30.
Page 5 – The Commissioner

•    The Maryland State Treasurer did not maintain documentation to support check
     clearance patterns stated in the CMIA agreement for payroll and vendor payments.
     Therefore, the auditors were not able to determine if the clearance patterns were
     properly developed. Improper clearance patterns could result in the State drawing
     funds untimely and a Federal interest liability to the State.

•    The New Hampshire State Treasury Department improperly excluded the SSI
     program from the CMIA agreement. Therefore, formal procedures for drawing funds
     were not established and could result in interest obligations not being properly
     reported.

•    The West Virginia Department of Education’s (DoE) funding techniques used for
     determining cash draws were not consistent with actual cash flow activity resulting in
     the State’s interest liability being understated. This finding was reported in both the
     State Fiscal Year (SFY) 2001 and 2002 single audit reports.

Direct cash management findings were reported in 9 of the 12 single audits
(or 75 percent) included in our review. The frequency of cash management findings
reported in these single audits indicates a systemic weakness in the States’
management controls over Federal cash draws. The lack of proper cash management
controls can result in unallowable cash draws and/or improper payment of interest
liabilities from SSA’s disability trust fund. The lack of State controls over cash
management warrants the Commissioner’s attention.21

Similar crosscutting cash management findings were identified in 10 single audits (see
Appendix E).

COMPARISON OF SINGLE AUDIT AND OIG FINDINGS

SSA OIG conducts audits of claims by DDSs for administrative costs based on the
frequency of prior audits as well as annual referrals by SSA’s Office of Disability.
Starting in fiscal year (FY) 2002, we increased our audit coverage to provide for a more
timely and effective review of administrative costs. We based this schedule on the
following factors: (1) past administrative audits, (2) amount of costs, and
(3) suggestions made by SSA.

The objectives of the audits are to determine whether (1) expenditures and obligations
are properly authorized and disbursed, (2) Federal funds drawn agree with total
expenditures, and (3) internal controls over the accounting and reporting of
administrative costs are adequate.



21
  In our prior single audit summary report Summary of Fiscal Year 2000 Single Audit Oversight Activities
(A-07-00-10032) we recommended that SSA provide instructions to DDSs to adhere to the terms of the
CMIA agreement. SSA issued a DDS Administrator’s letter, number 586, dated October 4, 2001 to
address our recommendation.
Page 6 – The Commissioner

We performed administrative cost audits at the California, Colorado, Hawaii, Illinois,
Kansas, Kentucky, New Mexico, Texas, and West Virginia22 DDSs covering part of the
same time period as the single audits discussed in this report. Our comparison of the
direct single audit findings and OIG findings disclosed notable differences. Only the
findings and questioned costs identified in the administrative cost audits for the same
period as the single audit are further discussed.

California DDS

Our audit of the California DDS covered the period October 1996 through March 2002.
The audit identified that (1) unallowable medical, nonpersonnel, and indirect costs were
claimed, (2) cash management practices need improvement, and (3) access controls
over computer security need improvement (see Appendix F). The single audit only
reported that incorrect information was reported for DDS cash draws (see Appendix D).

Colorado DDS

Our audit of the Colorado DDS covered the period October 1999 through
September 2002. The audit identified that (1) unallowable medical costs were claimed,
(2) cost allocation plans were not submitted timely and automated allocation was not
consistent with the approved indirect cost allocation plans, (3) nonpersonnel costs were
recorded in the incorrect FY, (4) cash draws were applied to the incorrect FY, and
(5) internal controls over issuing checks were weak (see Appendix F). The single audit
only reported that cash draws for the DDS were not in compliance with the CMIA
agreement (see Appendix D).

Hawaii DDS

Our audit of the Hawaii DDS covered the period October 1998 through
September 2001. However, the audit was expanded to fully develop the indirect cost
finding which affected costs claimed during the period October 2001 through
September 2002. The audit identified that (1) unallowable indirect costs were claimed,
(2) unliquidated obligations were overstated, (3) costs were recorded in the incorrect
FY, and (4) controls over computer access were not in place (see Appendix F). The
single audit did not report any findings related to the Hawaii DDS.

Illinois DDS

Our audit of the Illinois DDS covered the period October 1998 through
September 2001. The audit identified (1) unallowable indirect costs were claimed,
(2) documentation to support rates for CEs could not be provided, and (3) costs were
recorded in the incorrect FY (see Appendix F). The single audit did not report these
findings (see Appendix D for the single audit findings).


22
     The OIG audit of West Virginia was limited to indirect costs only.
Page 7 – The Commissioner

Kansas DDS

Our audit of the Kansas DDS covered the period October 1997 through
September 2000. However, the audit was expanded to fully develop the indirect cost
finding which affected costs claimed during the period October 2001 through
September 2002. The audit identified that indirect costs were not allocated to all
benefiting components, and information technology costs were not allocated according
to the approved cost allocation plan (see Appendix F). The single audit did not report
any findings related to the Kansas DDS.

Kentucky DDS

Our audit of the Kentucky DDS covered the period October 1998 through
March 2002. The audit identified that (1) SSA was charged for costs related to non-
SSA work, (2) costs were recorded in the incorrect FY, (3) costs were misclassified, and
(4) the inventory listing was not accurate (see Appendix F). The single audit did not
report any findings related to the Kentucky DDS.

New Mexico DDS

Our audit of the New Mexico DDS covered the period October 1998 through
September 2001. The audit identified that (1) unallowable indirect costs were claimed,
(2) cash draws exceeded expenditures, (3) fees for CEs exceeded the allowable rate,
(4) timely adjustments were not made to unliquidated obligations, and (5) funds no
longer needed remained available for DDS operations (see Appendix F). The single
audit did not report any findings related to the New Mexico DDS.

Texas DDS

Our audit of the Texas DDS covered the period October 1998 through September 2001.
The audit identified that (1) costs for CEs exceeded the allowable rate, and (2) excess
indirect costs were claimed as a result of excessive CE costs (see Appendix F). The
single audit did not report any findings related to the Texas DDS.

West Virginia DDS

Our review of the West Virginia DDS’s indirect costs covered the period
October 1999 through September 2002. The audit determined that (1) SSA was
charged for costs related to non-SSA work, and (2) unallowable indirect costs were
claimed (see Appendix F). The single audit only reported findings related to indirect
costs and cash management (see Appendix D for the single audit findings).
Page 8 – The Commissioner

CONCLUSION AND RECOMMENDATIONS
For the audits discussed in this report, cash management findings were reported in
9 of the 12 single audits (or 75 percent). In addition, between August 1998 and
April 2004, 78 single audits reported findings that directly impacted DDS operations. Of
the 78 single audits, 40 audits (or 51 percent) reported cash management findings. The
frequency of cash management findings reported in the single audits indicates a
systemic weakness in the States’ management controls over Federal cash draws. The
lack of proper cash management controls can result in unallowable cash draws and/or
improper payment of interest liabilities from SSA’s disability trust fund. The lack of State
controls over cash management warrants the Commissioner’s attention. Therefore, we
recommend that SSA remind DDSs and their State parent agencies to ensure proper
controls are in place for cash draws of Federal funds.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. See
Appendix G for the full text of SSA’s comments.




                                                 S
                                                 Patrick P. O'Carroll, Jr.
                                       Appendices
Appendix A – Acronyms

Appendix B – Background, Scope and Methodology

Appendix C – Summary of Single Audit Findings

Appendix D – Direct Findings Reported in 12 Single Audits

Appendix E – Crosscutting Findings Reported in 46 Single Audits

Appendix F – Findings Identified During the Same Time Period as the Single Audits
            Included in this Report

Appendix G – Agency Comments

Appendix H – OIG Contacts and Staff Acknowledgments
                                                           Appendix A
Acronyms
C.F.R.     Code of Federal Regulations
CE         Consultative Examination
CMIA       Cash Management Improvement Act
DCA        Division of Cost Allocation
DDS        Disability Determination Services
DHS        Department of Human Services
DI         Disability Insurance
DoE        Department of Education
DoF        Department of the Family
DRS        Department of Rehabilitative Services
FY         Fiscal Year
GAO        Government Accountability Office
MER        Medical Evidence of Record
OIG        Office of the Inspector General
OMB        Office of Management and Budget
OTDA       Office of Temporary and Disability Assistance
POMS       Program Operations Manual System
SFY        State Fiscal Year
SSA        Social Security Administration
SSA-4513   State Agency Report of Obligations
SSA-4514   Time Report of Personnel Services
SSI        Supplemental Security Income
Treasury   United States Department of the Treasury
U.S.C.     United States Code
                                                                                    Appendix B
Background, Scope and Methodology
BACKGROUND

Single Audit Act

On July 5, 1996, the President signed the Single Audit Act Amendments of 1996, Public
Law No. 104-156. The Amendments extended the statutory audit requirement to
nonprofit organizations and revised various provisions of the 1984 Single Audit Act,
including raising the Federal financial assistance dollar threshold for requiring an audit
from $100,000 to $300,000.1 On June 30, 1997, the Office of Management and
Budget (OMB) issued revised Circular A-133, Audits of States, Local Governments, and
Non-Profit Organizations, to implement the 1996 amendments. The revised
Circular A-133 was effective July 1, 1996, and applies to audits of fiscal years beginning
after June 30, 1996. This Circular requires non-Federal entities that expend
$300,000 or more per year2 in Federal awards to have a single or program-specific
audit conducted for that year.3

DDSs

The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act to provide benefits to disabled wage earners and their families. In
1972, Congress enacted the Supplemental Security Income (SSI) program to provide
income and disability coverage to financially needy individuals who are aged, blind,
and/or disabled.

The Social Security Administration (SSA) is responsible for the policies on developing
disability claims under the DI and SSI programs. The Disability Determination Services
(DDS) in each State or other responsible jurisdiction generally performs disability
determinations under the DI and SSI programs. Such determinations are required to be
performed in accordance with Federal law and underlying regulations.4 In carrying out
this function, the DDS is responsible for determining claimants’ disabilities and ensuring
that adequate evidence is available to support its determinations.5 In those limited
instances where SSA makes disability determinations, regulations provide that each

1
    31 United States Code (U.S.C.) §§ 7501 et seq.
2
 OMB Circular A-133 was revised June 27, 2003 to require non-Federal entities that expend $500,000 or
more in Federal awards in a fiscal year to have a single or program-specific audit, for fiscal years ending
after December 31, 2003.
3
    OMB Circular A-133, Subpart B § 200 (b).
4
    42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
5
    20 C.F.R. §§ 404.1614 and 416.1014.

                                                     B-1
State agency will obtain and furnish medical or other evidence and provide assistance
as may be necessary for SSA to carry out its responsibility for making such
determinations.6 SSA authorizes an annual budget to reimburse the DDS for
100 percent of allowable expenditures.7 There are 52 DDSs located in the 50 States,
the District of Columbia, and Puerto Rico.8 All DDSs are subject to audit under the
Single Audit Act Amendments of 1996.

Each DDS is managed by a State parent agency, which administers other State and
Federal programs. There are also other agencies within the State that administer
various aspects of Federal programs, such as cash draws and electronic data
processing.

Direct and Crosscutting Findings

In conducting single audits, the auditor uses a risk-based approach to determine which
Federal programs will receive audit coverage. The single audit also includes an audit of
the State’s financial statements. The two parts of the single audit identify direct or
crosscutting findings.

Direct findings are specifically identified to the Federal programs they affect. The direct
SSA findings are identified in single audits by the Catalog of Federal Domestic
Assistance, number 96. The single audits also report findings that impact more than
one Federal program, referred to as crosscutting. However, crosscutting findings may
not be identified to any one Federal program or may not be identified to all Federal
programs. Thus, the auditor may not be in a position to identify findings for SSA-funded
programs because of the limited scope of the single audit. While crosscutting findings
are not specifically identified to SSA, they could impact DDS operations.

SCOPE AND METHODOLOGY
We reviewed 54 single audits9 and the related recommendations and auditee
responses. Of the 54 single audits, 12 reported direct findings related to DDSs. These
findings, questioned costs, and related recommendations were previously reported on a
State-by-State basis to SSA’s Audit Management and Liaison Staff for resolution. In
addition, 46 of the 54 single audits reported crosscutting findings that could possibly

6
    Id.
7
     20 C.F.R. §§ 404.1626 and 416.1026. Program Operations Manual System DI 39501.020 B.1.
8
 During the time period covered by our review, the Guam DDS was administered by the government of
Guam and was required to have a single audit performed. Effective for SFY 2003 the Guam DDS will
become Federally administered and will not be subject to audit under the Single Audit Act Amendments of
1996.
9
  The 54 single audits included 3 State Fiscal Year (SFY) 2001 single audits and 51 SFY 2002 single
audits. The SFY 2002 single audit for the State of Michigan has not been completed and will be reported
in the 2003 single audit report. The biennial report for the State of Montana will be included in the 2003
single audit report. The Federally administered Virgin Islands DDS is not required to have a single audit.

                                                   B-2
affect DDS operations. To identify crosscutting issues, we reviewed all findings
reported for the State agency that managed the DDS and State agencies that
performed functions for the DDS.

We also reviewed relevant provisions of the:

    Single Audit Act Amendments of 1996, revised OMB Circular A-133, and OMB
     Circular A-133, Compliance Supplement (March 2002 revision);

    OMB Uniform Administrative Requirements for Grants and Cooperative Agreements
     to State and Local Governments (Common Rule);

    OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments;

    Title II and Title XVI of the Social Security Act;

    Program Operations Manual System instructions;

    Cash Management Improvement Act of 1990; and

    Office of the Inspector General (OIG) administrative cost audit reports for the
     California, Colorado, Hawaii, Illinois, Kansas, Kentucky, New Mexico, Texas, and
     West Virginia DDSs.10

The Compliance Supplement identifies seven types of compliance requirements
auditors should consider for the SSA programs in performing single audits. Our review
of the 54 single audits identified common direct findings in the cash management
category. In addition to this category, we identified crosscutting findings in the
procurement, equipment and real property management, reporting, and allowable costs
categories.

We performed fieldwork at the Office of Audit in Kansas City, Missouri, from
May 2003 to April 2004. We conducted our review in accordance with Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency.




10
  OIG audits of the DDSs listed are the only OIG audits covering the same or partial period as the single
audits discussed in this report.

                                                   B-3
                                                                                                                                                                 Appendix C
Summary of Single Audit Findings
                                                          Direct Findings1                                                                      Crosscutting Findings2




                                                                                            4




                                                                                                                                                                                     4
                                                                        Property Management




                                                                                                                                                                 Property Management
                                        Cash Management




                                                                                                                              Cash Management
                            State




                                                                                                                                                                                                     5
                                                                                                            5
                                                                                                            Allowable Costs




                                                                                                                                                                                                     Allowable Costs
                                                                        Equipment/Real




                                                                                                                                                                 Equipment/Real
                            Fiscal
            State




                                                          3




                                                                                                                                                  3
                                                          Procurement




                                                                                                                                                   Procurement
                             Year




                                                                                                                                                                                         5
                                                                                                5
                                                                                                Reporting




                                                                                                                                                                                         Reporting
    Alabama                  2002                                                                                             9
    Alaska6                  2002
    Arizona                  2002                                                                                                                                     9
    Arkansas7                2002
    California               2002       9                                                                                                          9                                     9
    Colorado                 2002       9                                                                                                                                                9           9
    Connecticut              2002                                                                                                                                                                    9
    Delaware                 2002                                                                                                                  9
    District of Columbia   2001/2002                                                                                                               9                                                 9
    Florida                  2002                                                                                                                                                                    9
    Georgia                  2002       9                                                                                                                                                            9
    Guam                   2001/2002                                                                                          9                    9                  9                              9
    Hawaii                   2002                                                                                                                                                                    9
    Idaho6                   2002
    Illinois                 2002       9                                                                   9                                                                                        9
    Indiana                  2002                                                                                                                                                        9           9
    Iowa                     2002                                                                                                                                                        9
    Kansas6                  2002
    Kentucky                 2002                                                                                                                                     9
    Louisiana                2002                                                                                                                                     9                              9
    Maine                    2002       9                                                                                                                                                9           9

1
    See Appendix D for detailed direct findings.
2
    See Appendix E for detailed crosscutting findings.
3
    There were no direct findings identified in this category.
4
    This category includes crosscutting findings that were identified in the areas of computer controls and/or
    property controls. There were no direct findings in this category.
5
  The direct findings identified in this category were considered insignificant and are not identified in this
report for resolution.
6
 The single audit reported findings, but they did not have the potential to affect the Disability
Determination Services.
7
    The single audit did not report any findings.

                                                                                C-1
                                                      Direct Findings1                                                                      Crosscutting Findings2




                                                                                        4




                                                                                                                                                                                 4
                                                                    Property Management




                                                                                                                                                             Property Management
                                    Cash Management




                                                                                                                          Cash Management
                        State




                                                                                                                                                                                                 5
                                                                                                        5
                                                                                                        Allowable Costs




                                                                                                                                                                                                 Allowable Costs
                                                                    Equipment/Real




                                                                                                                                                             Equipment/Real
                        Fiscal
          State




                                                      3




                                                                                                                                              3
                                                      Procurement




                                                                                                                                               Procurement
                         Year




                                                                                                                                                                                     5
                                                                                            5
                                                                                            Reporting




                                                                                                                                                                                     Reporting
 Maryland               2002       9                                                                                                                                                             9
 Massachusetts          2002                                                                                              9
 Minnesota              2002                                                                                                                                                                     9
 Mississippi            2002                                                                                                                                      9
 Missouri               2002                                                                                                                                                                     9
 Nebraska               2002                                                                                                                                                         9           9
 Nevada6                2002
 New Hampshire          2002       9                                                                                                           9                                                 9
 New Jersey6            2002
 New Mexico             2002                                                                                                                                      9                  9           9
 New York               2002                                                                            9                 9
 North Carolina         2002                                                                                              9                                       9                              9
 North Dakota         2001/2002                                                                                                                                                                  9
 Ohio                   2002                                                                                                                                                         9           9
 Oklahoma                2002                                                                                             9                                                                      9
 Oregon                  2002                                                                                             9                                       9                              9
 Pennsylvania            2002                                                                                                                  9                                                 9
 Puerto Rico             2002                                                               9           9                 9                    9                 9                   9           9
 Rhode Island           2002                                                                9                                                                    9                               9
 South Carolina         2002                                                                                                                                                                     9
 South Dakota           2002                                                                                                                                                                     9
 Tennessee              2002                                                                                                                                      9
 Texas                  2002                                                                                                                                      9
 Utah                   2002                                                                                                                                                                     9
 Vermont                2002                                                                                                                                      9                  9
 Virginia               2002                                                                                                                                      9
 Washington6            2002
 West Virginia        2001/2002    9                                                                    9                 9                                      9                               9
 Wisconsin              2002                                                                                                                   9
 Wyoming6               2002




Note: See page C-1 for explanation of footnotes.



                                                                            C-2
                                                                                   Appendix D
Direct Findings Reported in 12 Single Audits
                                                                                    QUESTIONED
 STATE                             DIRECT FINDINGS
                                                                                      COSTS
 California   1. The parent agency for the California Disability Determination                $0
                 Services (DDS), the Department of Social Services, provided
                 the Finance Department incorrect information on the
                 California DDS’s cash draws, which could have resulted in an
                 inaccurate calculation of the State’s interest liability to the
                 Federal government.


 Colorado     1. The parent agency for the Colorado DDS, the Department of                     0
                 Human Services (DHS), did not draw funds in a timely
                 manner.


 Georgia      1. The parent agency for the Georgia DDS, the Department of                 777,555
                 Labor, drew funds in excess of allowable expenditures.


  Illinois    1. The parent agency for the Illinois DDS, the DHS, did not                      0
                 submit accurate and timely expenditure information for
                 Federal programs to the Illinois Office of the Comptroller.

              2. DHS did not review or recertify the accuracy of clearance                     0
                 patterns identified in the Cash Management Improvement Act
                 (CMIA) agreement for Social Security Administration’s (SSA)
                 disability programs.


  Maine       1. The parent agency for the Maine DDS, DHS, drew funds                          0
                 between 3 to 30 days after checks were issued, resulting in a
                 negative average daily cash balance.


 Maryland     1. The Maryland State Treasurer did not maintain                                 0
                 documentation to support the check clearance patterns
                 stated in the CMIA agreement for payroll and vendor
                 payments.


  New         1. The State Treasury Department improperly excluded the                         0
Hampshire        Supplemental Security Income program from the CMIA
                 agreement.




                                                 D-1
                                                                                        QUESTIONED
     STATE                             DIRECT FINDINGS
                                                                                          COSTS
    New York      1. The parent agency for the New York DDS, the Department of                          $0
                     Social Services, Office of Temporary and Disability
                     Assistance (OTDA), allocated costs to the DDS based on
                     methodologies that were not approved by the Department of
                     Health and Human Services Division of Cost Allocation.

                  2. OTDA miscoded payroll and voucher expenses in its                                    0
                     accounting system. The miscoded expenses may have
                     resulted in improper charges to various Federal programs,
                     including SSA.


    Puerto Rico   1. The parent agency for the Commonwealth of Puerto, the                                0
                     Department of Family (DoF), could not supply all of the
                     required documentation for its contracts.

                  2. DoF did not submit the Time Report of Personnel Services                             0
                     (SSA-4514) timely.


Rhode Island      1. Disbursements reported on the State Agency Report of                                 0
                     Obligations (SSA-4513) were understated by $411,389.

                  2. Overtime hours were reported twice on the SSA-4514.                                  0


West Virginia     1. The parent agency for the West Virginia DDS, the DoE,                                0
 2001/2002           Division of Rehabilitation Services (DRS), did not adequately
                     maintain records to support that the approved indirect cost
                     rate was applied to the proper base amount.1

                  2. DRS used an incorrect indirect cost rate to charge indirect                          0
                     costs to the disability program.2

                  3. Funding techniques used for determining cash draws were
                     not consistent with actual cash flow activity resulting in an                        0
                     inaccurate calculation of interest liability.

                                                      Total Questioned Costs                   $777,555




1
  The SSA OIG Audit of Indirect Costs Claimed by the West Virginia Disability Determination Services
(A-07-03-23072), December 2003, determined that DRS’ failure to use an accounting code in the State’s
accounting system to identify indirect cost items did not result in unallowable indirect costs being charged
to SSA.
2
 The SSA OIG Audit of Indirect Costs Claimed by the West Virginia Disability Determination Services
(A-07-03-23072), December 2003, audit determined that the correct approved indirect rate was being
used.


                                                     D-2
                                                                                     Appendix E
Crosscutting Findings Reported
in 46 Single Audits
                                                                                    QUESTIONED1
    STATE                     CROSSCUTTING FINDINGS
                                                                                      COSTS
    Alabama     1. Duplicate drawdowns of Federal funds were made.                                    $0


    Arizona     1. The State’s Information Services Division, which operates                           0
                   the State’s computer system, had not implemented a
                   formal contingency plan in the event of a disaster that
                   could adversely affect its operations.


 California     1. Procedures were not in place to ensure that contractors                             0
                   were not suspended or debarred.

                2. Limitations in the automated accounting systems did not                             0
                   allow it to report expenditures by program on the Schedule
                   of Expenditures of Federal Awards.


 Colorado       1. Controls over payroll were not adequate.                                            0

                2. Procedures were not in place to ensure annual reports                               0
                   were complete and accurate.


Connecticut     1. Employees’ salaries were not charged to the benefitting                             0
                   Federal programs.


 Delaware       1. Procedures were not in place to ensure that contractors                             0
                   were not suspended or debarred.


 District of    1. Controls over payroll and maintenance of employee                                   0
Columbia           personnel information were not in place.
2001/2002
                2. Contracts were not approved prior to awarding funds for                             0
                   procured goods and services.


    Florida     1. Semiannual payroll certifications were not properly                                 0
                   prepared to support employees’ salaries.



1
 These amounts were reported in the single audit reports as questioned costs for various Federal
programs. They were not specifically identified to the Social Security Administration’s disability programs.


                                                    E-1
                                                                                 QUESTIONED1
   STATE                        CROSSCUTTING FINDINGS
                                                                                   COSTS
    Georgia       1. Bank reconciliations were not performed timely and                    $0
                     variances were not resolved.

                  2. All activity for bank accounts was not recorded on the                 0
                     general ledger.

                  3. Internal controls were not adequate to recognize revenue               0
                     in the general ledger.


    Guam          1. Procurement documentation for various transactions could           32,683
  2001/2002          not be located.

                  2. Physical inventory of equipment was not conducted timely               0
                     and property records were not updated.

                  3. Bank reconciliations were not performed timely.                        0

                  4. Controls were not in place to minimize the time between                0
                     the receipt and disbursement of funds.

                  5. Internal controls for record retention were not in place.          20,699


    Hawaii        1. Account information on the Automated Recovery System                   0
                     was not compatible with files on the Hawaii Automated
                     Welfare Information System resulting in incomplete and
                     inaccurate data.

                  2. Vacation and sick leave records were not properly                      0
                     maintained.


     Illinois     1. Costs were not allocated in accordance with the public                 0
                     assistance cost allocation plan.

                  2. Payroll costs that should have been allocated to Federal               0
                     programs were directly charged.


    Indiana       1. Policies and procedures in accounting activity were                    0
                     inconsistent and incompatible within the current system.


     Iowa         1. Procedures were not in place to ensure the annual report               0
                     was accurate.




Note: See page E-1 for explanation of footnote.



                                                      E-2
                                                                                   QUESTIONED1
   STATE                        CROSSCUTTING FINDINGS
                                                                                     COSTS
   Kentucky       1. Controls were not in place to ensure that password                      $0
                     policies were established and followed.

                  2. Segregation of duties between programmmer and operator                   0
                     functions was not in place.

                  3. Security controls over network servers were not in place.                0

                  1. Accounting controls over property acquisition, disposition,              0
   Louisiana         valuation, and location were inadequate.

                  2. Procedures were not in place to ensure reports were                      0
                     complete, accurate, and in compliance with program
                     regulations.


     Maine        1. Controls were not in place to ensure that only program-              90,700
                     related payroll costs were charged.

                  2. A system was not in place to ensure that financial reports               0
                     were accurate and filed timely.

                  3. Controls were not adequate to ensure that accurate                  691,657
                     financial reporting with prescribed methods to allocate
                     costs were used.

                  4. Charges were made to the Federal Program for the State’s                 0
                     share of program expenses.

                  5. Incorrect amounts were recorded and documentation was               735,765
                     not maintained for training costs.

                  6. Quarterly financial reports were inaccurate and were not                 0
                     reconciled to the State’s accounting system.

                  7. Procedures or systems were not in place to properly                      0
                     account for Federal funds.

                  8. Costs recorded on the Financial Status Reports were                      0
                     inaccurate.


   Maryland       1. Controls over recording and reporting of Federal revenue                 0
                     and related cash management activities need
                     improvement.


Massachusetts     1. Controls over cash management activities need                            0
                     improvement.


Note: See page E-1 for explanation of footnote.



                                                     E-3
                                                                                    QUESTIONED1
   STATE                        CROSSCUTTING FINDINGS
                                                                                      COSTS
  Minnesota       1. Program’s funds were used to pay the total cost of a                     $0
                     consulting contract that was not directly related to that
                     Federal program.


  Mississippi     1. Physical security controls over network computer                          0
                     equipment were inadequate.


    Missouri      1. Controls for the new State Accounting System were                         0
                     inadequate.


   Nebraska       1. A system was not in place to ensure that financial reports                0
                     were accurate and filed timely.

                  2. Expenditures obligated in one fiscal year were coded                      0
                     incorrectly to another fiscal year.


New Hampshire     1. Purchasing procedures were not followed in order to                  200,000
                     ensure services were obtained at the lowest price.

                  2. A system was not in place to ensure personnel costs were                  0
                     charged to the appropriate Federal program.


  New Mexico      1. Vouchers were not posted timely to the general ledger.                    0

                  2. Documentation for leave balance reports for 10 pay                        0
                     periods was missing.

                  3. Financial Status Reports were not available for review.                   0

                  4. The Department has no formal policy for taking laptop                     0
                     computers from the worksite.

                  5. There was no backup documentation for leased                              0
                     equipment.


   New York       1. Procedures were not in place for electronic benefit transfer              0
                     reconciliations that involved cash draws of Federal funds.




Note: See page E-1 for explanation of footnote.



                                                      E-4
                                                                                   QUESTIONED1
   STATE                        CROSSCUTTING FINDINGS
                                                                                     COSTS
North Carolina    1. Percentage errors were identified in the Department’s cost              $0
                     allocation reports.

                  2. Payroll worksheets were not approved for some                            0
                     employees.

                  3. Controls were not in place to ensure Federal funds were                  0
                     drawn in accordance with the CMIA.

                  4. There were inadequate controls over claims and invoices.                 0

                  5. A tracking system was not in place to ensure that all                    0
                     inventory records were presented for processing.

                  6. Procedures were not followed when processing cash                        0
                     disbursements and invoices were not paid timely.

                  7. Internal control weaknesses were noted in the billing and                0
                     collection of accounts, including adequately trained staff.

                  8. A disaster recovery plan was not in place.

                  9. Employees had improper access to the Department’s                        0
                     computer system.


 North Dakota     1. Personnel reports for the allocation of salaries and wages               0
                     to cost activities were not included in the Statewide Cost
                     Allocation Plan.


     Ohio         1. Employee timesheets were not supported to show                         185
                     adjustments made and overtime was paid instead of
                     straight time.

                  2. Amounts reported on the Shedule of Expenditures and                      0
                     Federal Awards were inaccurate and incomplete.

                  3. Documentation was missing showing that cost allocated to                 0
                     the program was allowable.

                  1. Controls were not in place to ensure Federal funds were                  0
   Oklahoma          drawn in accordance with the CMIA agreement.

                  2. Documentation for employee certifications was not                        0
                     maintained to verify that employees worked solely on one
                     program.




Note: See page E-1 for explanation of footnote.



                                                     E-5
                                                                                   QUESTIONED1
   STATE                        CROSSCUTTING FINDINGS
                                                                                     COSTS
    Oregon        1. Controls were insufficient to ensure transactions posted to               $0
                     the financial statements were accurate.

                  2. Controls were not in place to ensure Federal funds were                    0
                     drawn in accordance with the CMIA agreement.

                  3. Security controls over various computer applications were                  0
                     not in place.


 Pennsylvania     1. Internal controls were not in place to ensure that                         0
                     accounting transactions were presented in accordance
                     with Governmental Accounting Standards.

                  2. Accounts payable were understated in the financial                         0
                     statements.

                  3. Procedures were not in place to ensure that contractors                    0
                     were not suspended or debarred.


  Puerto Rico     1. Financial Status Reports were not reconciled with the                      0
                     General Ledger.

                  2. Property and equipment management procedures were                          0
                     not adequate.

                  3. Obligations were made after the allowed time period.                  11,584

                  4. Contracts were not approved prior to awarding funds for                    0
                     procured goods and services.

                  5. Federal funds were used for an unallowed activity.                  2,480,716

                  6. Supporting documentation for employee files and                    15,686,660
                     accounting records was not retained for expenditures
                     charged to Federal funds.

                  7. Federal reports were not submitted timely.                                 0

                  8. The filing system was not effective.                                       0

                  9. Significant deficiencies were noted in the internal control         2,608,172
                     structure, accounting and financial management systems,
                     budgetary controls, and financial reporting practices.

                  10. Evidence to support the drawdown of Federal funds could                   0
                      not be located.

                  11. Payment vouchers were incomplete.                                    24,398

Note: See page E-1 for explanation of footnote.



                                                     E-6
                                                                                  QUESTIONED1
   STATE                        CROSSCUTTING FINDINGS
                                                                                    COSTS
 Rhode Island     1. Bank reconciliations were not performed timely because of              $0
                     the implementation of a new accounting system.

                  2. Access controls for employee passwords over entry into                  0
                     the State payroll accounting system were not in place.

                  3. Accounting controls over equipment acquisition,                         0
                     disposition, and inventory were inadequate.

                  4. Cost allocation reports were not reconciled to the State’s              0
                     accounting system.


South Carolina    1. Monthly reconciliations for grant funds by the State were               0
                     not performed timely, properly prepared, or approved.


 South Dakota     1. The amount of expenditures for goods and services                       0
                     exceeded the amount shown on the invoices.


  Tennessee       1. Security controls over the computer system were not in                  0
                     place, and authorization forms were missing, incomplete,
                     or inconsistent with employees’ access rights.


     Texas        1. Internal controls were not in place to ensure that the                  0
                     Security System over equipment included evaluations of
                     physical and data security operating procedures.


     Utah         1. The Department did not issue management decisions                       0
                     within the prescribed 6-month timeframe as required by
                     Circular A-133.


   Vermont        1. A system was not in place to ensure that financial reports              0
                     were accurate and filed timely.

                  2. Computer system controls were inadequate regarding user                 0
                     names and access.

                  3. The State does not have a system in place for Federal                   0
                     expenditure data needed to to prepare the Schedule of
                     Expenditures of Federal Awards.


    Virginia      1. Sufficient procedures were not in place regarding the                   0
                     Security System policies for implementing and maintaining
                     proper security controls for equipment servers.

Note: See page E-1 for explanation of footnote.



                                                     E-7
                                                                                   QUESTIONED1
   STATE                        CROSSCUTTING FINDINGS
                                                                                     COSTS
 West Virginia    1. Segregation of duties in the Employee Payroll Information                $0
  2001/2002          Control System was not in place.

                  2. Controls were not in place to ensure Federal Funds were                   0
                     drawn in accordance with authorized funding techniques.

                  3. Changes to the electronic payroll system were not                         0
                     developed and tested in a segregated environment.

                  4. Segregation of duties over the program receipts process                   0
                     was not in place.

                  5. Procedures were not in place to identify, verify and report               0
                     uncashed checks within the required 180-day period.

                  6. Procedures were not adequate to ensure salaries were                      0
                     appropriately charged to Federal programs.


   Wisconsin      1. Procedures were not in place to ensure that contractors                   0
                     were not suspended or debarred.


                                                   Total Questioned Costs            $22,583,220




Note: See page E-1 for explanation of footnote.




                                                     E-8
                                                                                       Appendix F
Findings Identified during the Same Time
Period as the Single Audits Included in this
Report
                         OFFICE OF THE INSPECTOR GENERAL (OIG)                              QUESTIONED
    OIG AUDIT
                                        FINDINGS1                                             COSTS

  Audit of the        1. Unallowable medical costs were claimed for (a) excessive              $2,630,4492
 Administrative          fees for specialty examinations, x-rays, laboratory tests, other
 Costs Claimed           medical services, and review of medical evidence of record
by the California        (MER); and (b) duplicate payments for MER and consultative
    Disability           examinations (CEs).
 Determination
    Services          2. Unallowable costs were charged for (a) excessive rental                2,362,7302
(A-09-02-22022)          costs and (b) costs related to non-SSA programs.

                      3. Unallowable costs were charged for indirect costs that did not         1,708,0972
                         benefit SSA’s programs. These costs included statewide,
                         departmental, and special administrative indirect costs.

                      4. Cash management practices were lacking regarding the                     171,2272
                         funds from unnegotiated warrants, use of SSA funds to
                         replenish State funds, and proper draw down of funds.

                      5. Computer access controls over the monitoring of transactions                     0
                         and safeguards over employee workstations were lacking.


  Audit of the        1. Unallowable medical costs were claimed for (a) medical                  1,185,629
 Administrative          providers paid in excess of the fee schedule, (b) certain fees
 Costs Claimed           on the fee schedule exceeding the highest allowable rate,
by the Colorado          and (c) medical providers paid for broken appointments.
    Disability
 Determination        2. Cost allocation plans were not submitted in a timely manner.                40,278
    Services             In addition, the automated allocation system was not
(A-15-03-13044)          consistent with the approved indirect cost allocation plans.

                      3. Transactions in the all other nonpersonnel costs category                   61,520
                         were recorded in the incorrect fiscal year (FY).

                      4. Two cash draws were applied to the incorrect FY.                            53,531

                      5. Internal controls over checks, including segregation of duties,                  0
                         were weak. Specifically, (a) checks were mailed to payees
                         from an individual’s desk, and (b) undelivered checks were
                         not stamped non-negotiable or recorded in a check log upon
                         receipt.


1
    Only the findings and questioned costs identified for the same period as the single audit are reported.
2
 The questioned costs were not specifically identified by FY. Therefore, we were unable to report the
questioned costs for the time period of the single audit.
                                                     F-1
                       OFFICE OF THE INSPECTOR GENERAL (OIG)                         QUESTIONED
 OIG AUDIT
                                      FINDINGS1                                        COSTS

   Audit of the     1. Unallowable statewide and department indirect costs were          $76,935
 Administrative        allocated to SSA’s programs as a result of unnecessary
 Costs Claimed         encumbrances for payment of MER.
  by the Hawaii
    Disability      2. Unliquidated obligations were overstated as a result of            65,562
 Determination         medical costs being reported above supporting expenditures.
    Services
(A-09-03-13012)     3. Payments were charged to the incorrect FYs because                  9,9442
                       obligations were not always established in a timely and
                       accurate manner.

                    4. Automatic locks to secure employee workstations after a                 0
                       period of nonuse were not implemented.


    Audit of        1. The use of the provisional rate resulted in indirect costs       1,490,495
 Administrative        claimed in excess of allowable costs calculated using the
 Costs Claimed         actual rates for the audit period.
  by the Illinois
   Bureau of        2. Documentation to support medical rates used for CEs could         130,194
    Disability         not be provided, and by using comparable Medicare fees an
 Determination         estimated potential for costs savings was identified.
    Services
(A-05-02-22019)     3. Costs were recorded in the incorrect FY because the                75,206
                       Disability Determination Services (DDS) did not maintain a
                       “cut-off” to record costs in the proper year.


     Audit of       1. Indirect costs were not allocated to all benefiting              2,174,768
 Administrative        components, and information technology costs were not
 Costs Claimed         allocated according to the approved cost allocation plan,
 by the Kansas         resulting in unallowable costs of $1,227,645 in FY 2001 and
    Disability         $947,123 in FY 2002.
 Determination
    Services
(A-07-02-22003)


    Audit of        1. The cost of leave taken and hours worked by individuals who        41,433
 Administrative        worked on Temporary Assistance for Needy Families and
 Costs Claimed         Medical Assistance programs was inappropriately charged to
by the Kentucky        SSA programs.
 Department for
    Disability      2. Costs were charged to the incorrect FY.                           630,289
 Determination
    Services        3. Costs were misclassified for consulting services, indirect              0
(A-08-03-13007)        personnel and operating costs, and car pool and telephone.

                    4. The inventory listing was not accurate.                                 0




Note: See page F-1 for explanation of footnotes.
                                                   F-2
                          OFFICE OF THE INSPECTOR GENERAL (OIG)                          QUESTIONED
 OIG AUDIT
                                         FINDINGS1                                         COSTS

    Audit of         1. Unallowable indirect costs were claimed because Medicaid               $7,232
 Administrative         cost reimbursements were not excluded from the indirect cost
 Costs Claimed          base and an incorrect indirect cost rate was applied.
  by the New
Mexico Disability    2. Cash draws exceeded total disbursements because Medicaid                6,850
 Determination          reimbursement amounts were not subtracted from personnel
    Services            costs when requesting funds.
(A-06-03-13016)
                     3. CE costs were not limited to highest rate paid by Federal or            4,789
                        other agencies in the State for the same or similar type
                        service.

                     4. Timely adjustments were not made to unliquidated                      175,446
                        obligations reported on the SSA-4513, and monies were
                        unnecessarily obligated.

                     5.   A funding balance that was no longer needed for DDS                 168,596
                          operations remained available in the Automated Standard
                          Application for Payments System.


    Audit of         1. Fees were paid for CEs in excess of their authorized fee            1,336,228
 Administrative         schedule.
 Costs Claimed
  by the Texas       2. As a result of the excess CE payments discussed above,                110,114
    Disability          indirect costs claimed were improperly increased.
 Determination
    Services
(A-15-02-12051)


 Audit of Indirect   1. Indirect costs were not adjusted to account for a reduction in          6,596
 Costs Claimed          nonpersonnel costs claimed.
   by the West
     Virginia        2. The total salary of a computer programmer who worked on                42,093
    Disability          both DDS and Department of Rehabilitative Services (DRS)
  Determination         activities was charged to the DDS and included in the base
    Services            used to calculate indirect costs charged to SSA. Furthermore,
(A-07-03-23072)         the time the employee spent on the DDS versus DRS
                        programs was not documented.
                                                                                                8,296
                     3. Duplicate travel costs were claimed on the SSA-4513.
                                                                                                8,132
                     4. Unallowable indirect costs were claimed due to unallowable
                        personnel and nonpersonnel costs being inappropriately
                        included in the indirect cost base.

                                                          Total Questioned Costs         $14,782,659


Note: See page F-1 for explanation of footnote.



                                                    F-3
                  Appendix G
Agency Comments
                                          SOCIAL SECURITY


MEMORANDUM                                                                          34065-24-1217

Date:      August 24, 2004                                                          Refer To: S1J-3


To:        Patrick P. O’Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Management Advisory Report, “Summary of Single
           Audit Oversight Activities for May 2003 through April 2004” (A-07-04-14063)--
           INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the draft report are
           attached.

           Please let us know if we can be of further assistance. Staff questions may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                           G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT, “SUMMARY OF SINGLE AUDIT
OVERSIGHT ACTIVITIES FOR MAY 2003 THROUGH APRIL 2004”
(A-07-04-14063)

Thank you for the opportunity to review the OIG’s draft Management Advisory Report.
SSA fully supports OIG’s continued oversight of the single audit activities.

Recommendation

SSA should remind the Disability Determination Services (DDS) and their State parent
agencies to ensure proper controls are in place for cash draws of Federal funds.

Comment

We agree and will issue a DDS Administrator’s letter at the beginning of the next fiscal
year (October 2004), reminding the DDSs and their parent agencies to ensure proper
controls are in place for cash draws of Federal funds. An Administrator’s letter will be
reissued at the beginning of each successive fiscal year as a further reminder to the DDSs.

SSA believes it would be beneficial if a list of common findings cited in these audits
were shared with the DDSs and their parent agencies to assist them in correctly following
provisions of the Cash Management Improvement Act. We also think it would be helpful
to provide specific recommendations in the report on how to effectively avoid common
problems that result in unallowable cash draws.




                                           G-2
                                                                       Appendix H
OIG Contacts and Staff Acknowledgments
OIG Contacts

      Mark Bailey, Director, Central Audit Division (816) 936-5591

      Shannon Agee, Audit Manager (816) 936-5590

Acknowledgments

      Wanda Craig, Auditor

      Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-04-14063.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
